DOE/IG-0511




          AUDIT
         REPORT
                                   RESEARCH AND DEVELOPMENT
                                     AT LAWRENCE LIVERMORE
                                      NATIONAL LABORATORY




                                               JULY 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                                 U. S. DEPARTMENT OF ENERGY
                                       Washington, DC 20585

                                              July 9, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Research and Development at Lawrence
                          Livermore National Laboratory"

BACKGROUND

Lawrence Livermore National Laboratory (Livermore), a major component of the Department of Energy's
national laboratory system, has an annual Research and Development (R&D) budget of about $1 billion. The
Department established a set of processes and procedures to ensure that Livermore's R&D efforts are
authorized by responsible Federal Officers and are consistent with the Department's mission. The objective
of our audit was to determine whether Livermore was performing R&D that was not authorized by the
Department.

RESULTS OF AUDIT

Based on a review of a statistically-based sample of 45 Livermore projects for Fiscal Years 1998-2000, we
found that 26 projects involved R&D efforts for which the contractual authority to do the work was
questionable. The 26 activities had a total value of $7.5 million.

Under its policies for managing R&D, and consistent with the terms of the contract with the University of
California, Livermore's managing contractor, the Department must authorize and approve each R&D project.
Generally, such approval is predicated on the project being part of the laboratory's Work Authorization
System. However, as an alternative, R&D may be approved, with limitations, as part of two other
departmental programs, Work for Others or as Laboratory Directed Research and Development. Without
departmental approval, Livermore has no contractual authority to conduct the R&D.

Instead of funding the 26 R&D projects through one of the approved mechanisms noted above, Livermore
used several overhead accounts for this purpose. In our view, this circumvented the Department's work
authorization system. While the Department's Oakland Operations Office regularly approved Livermore's
overhead rates, the Laboratory's overhead submission was not described in sufficient detail to allow Federal
officials to discern the complete composition of the overhead pool. Thus, the problem described in this
report may not have been apparent to Department officials. Because our sample was statistically based, we
were able to extrapolate to the entire universe and conclude that the number of questionable Livermore
projects for the period was actually 194, with a total value of about $33.6 million. Based on the process we
found at Livermore, we are concerned that future R&D efforts will be treated in a similar fashion.

The use of Laboratory overhead accounts to fund R&D projects raises a number of general management
concerns. These relate to the potential effect on (1) the Department's ability to manage its R&D portfolio;
and, (2) escalating overhead rates if such funding is used to support R&D projects.
                                                     -2-


The findings in this report, parallel concerns with the Department's methodology for controlling overhead
raised by the Congress in the FY 2000 Energy and Water Appropriations Act. Congress specifically
suggested that the Department may have charged activities to overhead that should have been charged
directly and that activities may have been funded from overhead to avoid the formal approval process.

MANAGEMENT REACTION

Management partially concurred with 3 of the 4 recommendations. Management expressed the view that
the report did not provide enough information to make an assessment of the nature of the alleged
unauthorized work and to determine whether or not these projects were in fact unauthorized and the
estimated questioned funds involved were accurately calculated.

We are concerned that the responsible Department managers did not elect to perform their own examination
of any of the projects questioned as a result of this audit. If legitimate questions existed, management could
have satisfied itself as to the validity of the OIG's findings. From a contractual perspective, the
Department's contracting officer is responsible for knowing the scope of work being performed,
administering the contract and, specifically, for determining whether a cost should be allowed or
disallowed. Management's comments and the OIG response are more fully discussed on page 5 of the
report.

Attachment

cc: Deputy Secretary
    Under Secretary
    Administrator, National Nuclear Security Administration
RESEARCH AND DEVELOPMENT AT LAWRENCE LIVERMORE NATIONAL
LABORATORY


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations...............................................….1


                 Research and Development Not Authorized by DOE

                 Details of Finding.......................................................................2

                 Recommendations and Comments ...........................................5


                 Appendices

                 Scope and Methodology.............................................................7

                 Sampling Objectives, Technique,
                 and Evaluation ...........................................................................8

                 Related Reports .........................................................................9
OVERVIEW

INTRODUCTION AND   The primary mission of the Department of Energy's (DOE) national
OBJECTIVE          laboratories is to perform research and development (R&D). Lawrence
                   Livermore National Laboratory (Livermore), which is managed and
                   operated for DOE's Oakland Operations Office (Oakland) by the
                   University of California (University), has an annual R&D budget of
                   about $1 billion. Several audits by the Office of Inspector General
                   (OIG) and General Accounting Office (GAO) have questioned the
                   national laboratories' management of R&D; including the laboratories'
                   authority to do certain work (see Appendix 3). Three of these audits
                   were specific to University-managed laboratories and questioned DOE
                   and University control over funds used for discretionary R&D projects.

                   The objective of our audit was to determine whether Livermore was
                   performing R&D that was not authorized by DOE.


CONCLUSIONS AND    Livermore performed R&D that was not authorized by DOE. For
OBSERVATIONS       Fiscal Years (FY) 1998-2000, we estimated that 194 projects at
                   Livermore involved R&D for which there was no contractual authority
                   to do the work. Livermore circumvented the work authorization
                   process by funding the R&D through overhead accounts. As a result,
                   DOE funded about $33.6 million of unauthorized R&D during FYs
                   1998-2000. If such spending continues, Livermore will spend about
                   $11.2 million annually for unauthorized R&D.

                   The audit identified a material internal control weakness that
                   management should consider when preparing its yearend assurance
                   memorandum on internal controls.


                                                            (Signed)
                                                       Office of Inspector General




Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
RESEARCH AND DEVELOPMENT NOT AUTHORIZED BY DOE

Livermore Performed     Livermore performed R&D that was not authorized by its contract. To
Unauthorized Research   fund an R&D project it must be approved as part of the Work
And Development         Authorization System (WAS), Work for Others (WFO), or Laboratory
                        Directed Research and Development (LDRD) programs. Instead of
                        funding the R&D through one of the approved methods, Livermore
                        categorized the work as "technical activities" and funded it out of one of
                        its overhead accounts. Because many of Livermore's technical
                        activities appeared to involve R&D -- defined as a systematic study
                        directed toward fuller scientific knowledge and the use of that
                        knowledge to develop useful materials, devices, systems, or methods --
                        we statistically selected 45 technical activities to examine. The
                        examination showed that 26 were questionable because they had the
                        characteristics of R&D, such as developing devices or methods based
                        on research. For example:

                           •   Livermore developed a new generation of instruments to
                               identify target deoxyribonucleic acid (DNA) sequence. Since
                               the development of these instruments was based on earlier
                               research of polymerase chain reaction and DNA, it was actually
                               R&D.

                           •   Livermore developed a high-pressure gas loader that also met
                               the definition of R&D because the work involved the
                               development of a device. Further, the approach used to develop
                               the gas loader was similar to that used in another R&D project
                               (that is, Science of Seawater). In each case, Livermore used the
                               knowledge and understanding gained from research to develop a
                               new analytical device.

                           •   Livermore developed equipment that allows researchers to
                               shape and finish materials, at an atomic level, with minimal sub-
                               surface damage. This work meets the definition of R&D
                               because the equipment was developed based on prior research
                               on atmospheric pressure plasma processing.

                           •   Livermore researched and developed software that calculates
                               doses of medication based on an individual's cellular activity
                               and depicts how DNA will respond to certain chemical
                               exposures. This meets the definition of R&D because the goal
                               of the work was to (1) acquire fuller scientific knowledge and
                               understanding of individual cellular activities, (2) assess the
                               impact of the medication on the cells, (3) and determine how
                               DNA would respond to chemical exposures.


Page 2                                                                        Details of Finding
                          In addition to meeting the definition of R&D, there was corroborating
                          evidence that the laboratory considered the work to be R&D. Of the
                          26 questioned technical activities, 6 had been proposed under the
                          LDRD program. Four, in fact, were authorized and funded as LDRD
                          and also received overhead funding. Further, 10 of the 26 questioned
                          technical activities were included in the Engineering Directorate's
                          annual research, development and technology reports, which highlight
                          the results of Livermore's R&D work.

                          Based on our examination and Livermore's actions, we concluded that
                          the 26 were in fact R&D projects. The questioned technical activities
                          ranged in value from $17,000 to $1.1 million. Projection of the sample
                          results to the universe showed that about 194 technical activities
                          performed during FYs 1998-2000 were unauthorized R&D.


Methods for Authorizing   Under the terms of the contract with the University, DOE can authorize
Research and              R&D conducted at the laboratory as: WAS, WFO, or LDRD.
Development
                             •   Under WAS, Livermore identifies R&D in support of specific
                                 DOE programs. These activities are to be reviewed and
                                 authorized by DOE. Authorized work is funded directly by
                                 DOE.

                             •   Under WFO, Livermore can assist other Federal agencies and
                                 non-federal entities. Oakland's review and authorization is
                                 required by the contract. The non-DOE sponsors fund the work.

                             •   Under LDRD, Livermore can perform discretionary R&D.
                                 Such work is reviewed and authorized by Oakland. The work is
                                 funded out of the laboratory director's LDRD account, which is
                                 a percentage of the budget.

                          DOE must authorize and approve each R&D project. Without
                          authorization, Livermore has no contractual authority to do R&D. In
                          fact, the contract states that DOE will not reimburse Livermore for the
                          cost of independent R&D.


Work Authorization        Livermore did not have effective controls to eliminate R&D activities
Process Circumvented      from its overhead accounts. Although one directorate had established
                          guidance to determine if R&D activities were proposed for funding
                          through overhead accounts, the guidance was not appropriate. While


Page 3                                                                        Details of Finding
                      we acknowledge that the unauthorized R&D may have been
                      meritorious, the work was not approved or funded as WAS, WFO, or
                      LDRD. Instead, Livermore performed the questioned technical
                      activities by funding them through one of three overhead accounts:
                      General and Administrative; Organization Personnel Charges; and
                      Program Management Charges. Livermore used this funding
                      mechanism because it considered the work important even though it
                      had not been authorized as R&D. Thus, Livermore circumvented the
                      work authorization process.

                      Oakland approved Livermore's overhead rates. However, Oakland was
                      not aware that portions of Livermore's overhead rate submissions
                      represented R&D projects because the laboratory's overhead rate
                      submissions were not described in detail. Thus, excessive funding was
                      inadvertently provided to Livermore and used by the laboratory to fund
                      unauthorized R&D projects.

                      While we questioned the use of overhead funds for R&D, we reviewed
                      other technical activities funded through these overhead accounts and
                      found them to be appropriate. For example, Livermore appropriately
                      used one overhead account to pay for an assessment of risk to
                      laboratory buildings from seismic activity. The laboratory also
                      appropriately used another overhead account to develop strategies and
                      solicit proposals for its Engineering Center.


Projects Funded       From October 1998 through September 2000, Livermore spent over
at the Expense of     $33.6 million on 194 unauthorized R&D projects questioned in this
Authorized Research   audit. Unless better controls are established, Livermore can be
and Development       expected to expend an additional $11.2 million annually on
                      unauthorized R&D if such spending continues at the rate experienced
                      during FYs 1998-2000. As the funding for the unauthorized work is
                      based on approved overhead rates, the cost of the work is assessed
                      against authorized projects, such as the National Ignition Facility. This
                      is not the intent of DOE or the Congress and should not occur.




Page 4                                                                     Details of Finding
RECOMMENDATIONS       We recommend that the Manager, Oakland Operations Office direct
                      Livermore to:

                         1. Discontinue ongoing, unauthorized R&D;
                         2. Establish procedures to prevent overhead accounts from being
                            used to fund unauthorized R&D;
                         3. Submit to DOE for review and authorization a description of all
                            technical activities to be funded from overhead accounts; and,
                         4. Reimburse DOE for the cost of unauthorized R&D.

MANAGEMENT REACTION   Management partially concurred with recommendations 1, 2, and 3, and
                      non-concurred with recommendation 4. Management believes the
                      report did not provide enough information to make an assessment of the
                      nature of the alleged unauthorized work and to determine whether or
                      not these projects were in fact unauthorized and the estimated
                      questioned funds involved were accurately calculated.

                      Recommendation l: Management stated that the OIG applied criteria
                      prescribing that R&D related activities had to be identified specifically
                      in the Work Authorization System, Work for Others or LDRD in order
                      to be appropriately authorized. No other criteria were considered.
                      Also, Defense Programs and Oakland contend that the criteria for
                      determining whether R&D activities are authorized should be expanded
                      to include overhead expenses associated with technical activities.
                      Examples include: employees between assignments, post-doctoral
                      research fellows, as well as the development of new techniques,
                      procedures and tools that are not commercially available for the unique
                      work that Livermore performs.

                      Recommendation 2 and 3: Management was concerned that there was
                      too little information in the draft report to make an assessment of the
                      nature of the alleged unauthorized work. It believed such information
                      is required to determine whether or not these projects were in fact
                      unauthorized and whether or not the estimated funds involved were
                      accurately calculated. Therefore, the Defense Programs and Oakland
                      response is to defer concurring with the OIG recommendation until
                      more information is provided.

                      Recommendation 4: Management stated the OIG’s sampling technique
                      does not appear to generate a valid projection to the entire population
                      because 1) the accounts were not segregated and projected by fiscal
                      year thus creating a large potential for distortion and; 2) the population
                      was not stratified properly. Large dollar amounts should be sampled at
                      a 100 percent rate and only small dollar amounts should be sampled and
                      extrapolated to the universe.

Page 5                                                                 Recommendations
                                                                       and Comments
AUDITOR COMMENTS   Management's statement regarding criteria is correct. We acknowledge
                   that the audit was based on the Department’s own criteria for
                   authorizing work for its laboratory system. We clearly conveyed to
                   both Livermore and Federal officials that this was the case. In our
                   opinion, this is not the appropriate forum to comment on proposed or
                   contemplated changes to the Department’s policy as to appropriate
                   R&D activities. However, any policy change which expands the
                   definition of overhead appears to run contrary to concerns expressed by
                   the Congress and by the current and recent administrations.
                   Nonetheless, in the context of this audit, the fact that management’s
                   response to the audit report urges, prospectively, a broadening of the
                   criteria, suggests that the audit correctly identified R&D at Livermore
                   which was not properly authorized. Management also takes the
                   position that the OIG did not provide enough information to allow the
                   Department to make a judgment as to the appropriateness of the cited
                   R&D activities. We fail to understand the logic of proposing changes
                   to the key criteria when, if as management contends, there is
                   insufficient evidence to support such changes.

                   We believe that the Department has not chosen the correct course of
                   action in this matter. First, Livermore personnel, as is Livermore
                   protocol, received copies of all relevant documents that had been
                   provided to the OIG staff during the audit. Second, Oakland
                   management was aware of the specifics of the 26 Livermore projects
                   that we questioned. In addition, although Livermore personnel, at
                   times, questioned whether our analysis had considered certain matters,
                   we found that these matters did not affect our conclusion as to whether
                   work was or was not unauthorized R&D. Finally, despite long delays
                   in the process of obtaining management’s comments on the audit report,
                   the Department apparently made no effort to perform its own
                   independent examination of even one of the projects questioned in the
                   audit. Indeed, Defense Programs and Oakland officials had the
                   information necessary to independently assess whether there was a
                   pattern of unauthorized R&D, funded through overhead accounts, at
                   Livermore. Had management done so, constructive corrective action
                   could have been pursued and achieved.

                   The sampling methods and techniques employed in this audit are
                   standard in the profession, are explained in detail elsewhere in this
                   report, and speak for themselves. While management is free to contest
                   our extrapolations, we believe there is sufficient information provided
                   for management, at a minimum, to test the transactions listed as
                   examples in our report, and if they are independently confirmed as not
                   meeting current criteria, to initiate constructive corrective action.


Page 6                                                                Recommendations
                                                                         and Comments
APPENDIX 1

SCOPE         The audit was performed at Oakland (Oakland, California), and
              Livermore (Livermore, California) from March 2000 to January 2001.
              The technical activities reviewed were performed during FYs 1998-
              2000.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed DOE and Livermore personnel;
                 •   Statistically sampled and reviewed 45 technical activities
                     performed at Livermore that were funded through Livermore's
                     overhead accounts (see Appendix 2);
                 •   Reconciled project cost data on Livermore's data submission to
                     the general ledger;
                 •   Reviewed contract provisions for Government Performance and
                     Results Act of 1993 performance measures related to the audit
                     objective; and,
                 •   Reviewed prior OIG and GAO audit reports.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls with respect to the
              authorization process for research and development, including the
              controls for obtaining DOE's approval and funding. Instead of
              performing our own assessment of the reliability of computer-processed
              data, we relied on work done by the auditors who tested Oakland's and
              Livermore's financial systems as part of the audits of DOE's financial
              statements for FYs 1998 and 1999. We also relied on the computer
              systems work done as part of Livermore's internal audit of the
              laboratory's financial general ledger system. None of these audits
              disclosed any material weaknesses with computer-processed data. No
              performance measures relevant to the audit objective were noted.
              Because our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the time of our
              audit. We discussed the finding with representatives of Oakland and
              Livermore on March 22, 2001.




Page 7                                                     Scope and Methodology
APPENDIX 2


SAMPLING OBJECTIVES,                                        Objectives
TECHNIQUE, AND
EVALUATION             The sampling objective was to determine the number of unauthorized
                       R&D projects Livermore financed using overhead funds.

                                                            Technique

                       We used the Audit Command Language statistical sampling software
                       to randomly select the sample and the U.S. Army Audit Agency
                       statistical sampling software to evaluate the sampling results. The
                       sampling universe consisted of 332 technical activities that Livermore
                       identified as being charged to overhead accounts during FY 1998-
                       20001. We established a confidence level of 90 percent with an
                       expected error rate of 10 percent, which resulted in a sample size of 45
                       projects. The sampling units were the individual technical activities.

                       We used attribute sampling. The attribute tested was whether a
                       technical activity was an R&D project as defined by Federal and DOE
                       regulations and whether the work was authorized as WAS, WFO, or
                       LDRD. Any project that met the definition of R&D and was not
                       authorized by DOE was considered a sampling error. We obtained
                       project summaries and discussed the projects with key project officials
                       to determine if the technical activities were R&D.

                                                            Evaluation

                       Based on our review of project summaries and discussions with
                       principal investigators, 26 of the 45 technical activities met the
                       definition of R&D. At the 90 percent confidence level, 194 of the 332
                       projects were R&D.




                       1
                        "Technical activities" was a term that the auditors and Livermore personnel agreed
                       to use for identifying all activities, other than administrative and support functions,
                       that Livermore performed using overhead funds.

Page 8                                                                         Sampling Objectives,
                                                                          Technique, and Evaluation
APPENDIX 3



                       RELATED OFFICE OF INSPECTOR GENERAL AND
                         GENERAL ACCOUNTING OFFICE REPORTS


•   Management of the Laboratory Directed Research and Development at the National Renewable Energy
    Laboratory, OIG Report No. WR-B-99-05, July 12, 1999. The National Renewable Energy Laboratory
    funded 21 unqualified projects as LDRD.

•   Management of the Laboratory Directed Research and Development Program at the Lawrence
    Livermore National Laboratory, OIG Report No. CR-B-98-02, November 14, 1997. Actions taken in
    FYs 1996 and 1997 by DOE and Livermore increased the level of discretionary research work
    conducted at Livermore by an equivalent of $19 million. This increased level of discretionary research
    was primarily obtained by: removing G&A allocations from LDRD projects; using performance fee
    revenues and licensing and royalty income for discretionary research; and assessing a 6 percent LDRD
    surcharge on intra-Departmental requisition orders from other DOE laboratories.

•   Discretionary R&D Funds, GAO Report No. RCED-91-18, December 5, 1990. DOE controls were
    weak over the administration and use of discretionary R&D funds at the Livermore, Sandia, and Los
    Alamos National Laboratories. DOE had not effectively implemented the control mechanisms
    contained in DOE Order 5000.1A. Further, DOE had neither formally reviewed nor set a funding
    ceiling applicable to the basic research component of Los Alamos' Discretionary R&D program and had
    no formal systems of controls in place covering basic research.

•   Exploratory Research and Development Program at Argonne National Laboratory, OIG Report No.
    ER-0-89-07, June 6, 1989. Argonne National Laboratory used overhead funds during the 3-year audit
    period for: (1) $7.2 million in research that did not meet the DOE Order 5000.1A definition of
    Exploratory Research & Development (ER&D), (2) ER&D that exceeded the authorized funding level
    by $2.5 million, and (3) ER&D expenditures that were not authorized or reported to DOE.

•   Exploratory Research and Development Funds at Los Alamos National Laboratory, DOE/IG-0267,
    May 17, 1989. Los Alamos spent $97.7 million more than authorized for its discretionary R&D. DOE
    was aware of this practice but did not take effective action to make Los Alamos comply with the
    established requirements of the ER&D program.




Page 9                                                                                   Related Reports
                                                                             IG Report No. : DOE/IG-0511

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
